BECKER GALLAGHER
Briefs

and

Supreme Court ofthe United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, herebycertifythat 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Roman Andy Janiec, Slawomira Janiec,
Jonathan Andrew Janiec v. City of Glendora, a
municipal corporation, were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent
Next Day Service and e-mail to the following parties
listed below, this 7th day of October, 2021:
Daryl Wayne Leech
Leech and Associates
Suite 200
11001 E. Valley Mall
El Monte, CA 91731
(626) 443-0061
wayne@leechlaw.com
Counsel for Respondent
Frank A. Weiser
Counsel of Record
Attorney at Law
3460 Wilshire Blvd., Suite 1212
Los Angeles, CA 90010
(213) 384-6964
maimons@aol.com
Counsel for Petitioners

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

, www.beckergallagher.com

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 7, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

1z

10 /

'-f;lc9-oj.j

'cll(J~~~ltc

Notary Public
[seal]

BIANCA BECKER

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

